<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Tester, and Alexander.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF ABIGAIL KIMBELL, CHIEF


             opening statement of senator dianne feinstein


    Senator Feinstein. Good morning.
    On behalf of the Interior Appropriations Subcommittee, I 
would like to welcome you to the hearing on the fiscal year 
2010 budget.
    Unfortunately, both Senator Alexander and I have to leave a 
little before 11 a.m. So, Ms. Kimbell, this will be necessarily 
a short hearing. I don't think you would object to that, and we 
will do what we have to do and do it efficiently, I hope.
    I am very pleased to welcome you, as Chief of the Forest 
Service, before this subcommittee.
    I would like to start by saying that I think this is a very 
good budget. It may need some changes around the edges to meet 
certain priorities, but we can talk about that.
    I would like to express my appreciation that the President 
has requested $200 million in supplemental firefighting funds 
for the Forest Service before the fire season begins in 
earnest. That is a welcome change.
    The recent fires in Santa Barbara showed it is likely that 
we are in for another brutal, expensive fire season. And so, it 
is my hope that these funds will help prevent the service from 
borrowing from other programs to pay for firefighting needs 
this year.
    The President has requested $5.226 billion for the Forest 
Service for 2010. That is a 10 percent increase, or $480 
million over the 2009 enacted level.
    The new administration recognizes that firefighting costs 
are likely to exceed the 10-year fire suppression average and 
has submitted a budget that reflects that reality. It requests 
full funding in the 10-year average for a total of $1.128 
billion and includes a new $280 million reserve fund that is 
available for the Forest Service if its regular appropriations 
run out before the end of the fiscal year.
    It also invests in the Service's aging network of 
facilities, roads, and trails. Overall, the Service's capital 
improvement and maintenance program is funded up 10 percent, at 
$557 million over the enacted level. And this includes $50 
million to help address the Service's $5 billion backlog of 
deferred maintenance and also to create jobs.
    In particular, this budget proposes to reduce hazardous 
fuels reduction programs by $13 million, and that is a 4 
percent cut. And I must tell you, I have a problem with that. 
In my view, this cut doesn't make sense. Particularly when we 
are pouring money into firefighting programs, we have to begin 
to manage our forests and remove hazardous fuels and be 
prepared for fire, prevent fire.
    I am also concerned that the request funds fire 
preparedness programs at $675 million, equal to the enacted 
level. This means that the Service will be forced to shift more 
costs for firefighter salaries and equipment to the fire 
suppression program, further driving up the 10-year average.
    But in summary, a 10 percent increase in this time of debt 
and deficit, is, indeed, a very good budget.


                           prepared statement


    So that completes my remarks, and Mr. Ranking Member, I 
would be happy to recognize you at this time.
    [The statement follows:]
             Prepared Statement of Senator Dianne Feinstein
    Good morning, ladies and gentlemen. On behalf of the Interior 
Appropriations Subcommittee, I welcome you to our hearing on the fiscal 
year 2010 budget request for the U.S. Forest Service.
    I'm pleased to welcome Gail Kimbell, Chief of the Forest Service, 
before the subcommittee.
    I'd like to start this morning by saying that I think this budget 
is a good first step toward meeting the needs of our national forests.
    Now, that doesn't mean that there isn't room for improvement, 
because there certainly is. We'll talk about some of the priorities 
that are left out of this budget. But the request lays a foundation 
that this subcommittee can build on.
    I'd also like to express my appreciation that the President has 
requested $200 million in supplemental firefighting funds for the 
Forest Service before fire season begins in earnest this year. That's a 
welcome change from the position of the previous administration.
    As the recent fires in Santa Barbara showed, it is likely that we 
are in for another brutal, expensive fire season. It is my hope that 
these funds will help prevent the Forest Service from borrowing from 
other programs to pay for firefighting needs this year.
    Turning to the particulars, the President has requested $5.226 
billion for the Forest Service for fiscal year 2010, an increase of 
$480 million over the fiscal year 2009 enacted level. That's a welcome 
10 percent increase.
    Most importantly, I am pleased that the new Administration 
recognizes that firefighting costs are likely to exceed the 10-year 
fire suppression average--and has submitted a budget that reflects that 
reality.
    The budget request fully funds the increase in the 10-year average 
for a total of $1.128 billion. It also includes a new $282 million 
reserve fund that's available to the Forest Service if its regular 
appropriations run out before the end of the fiscal year.
    The budget also invests in the Forest Service's aging network of 
facilities, roads, and trails. Overall, the Forest Service's capital 
improvement and maintenance program is funded at $557 million, an 
increase of 15 percent more than the enacted level. That includes a $50 
million initiative to help address the agency's $5 billion backlog of 
deferred maintenance and create jobs.
    Finally, the budget request includes a $42 million boost to State 
and private forestry programs, targeted specifically to protecting open 
spaces through conservation easements.
    These are all important priorities, and I am pleased to see them 
funded. However, at the same time, I am also concerned that the budget 
request shortchanges other priority needs to pay for these initiatives.
    In particular, this budget proposes to reduce hazardous fuels 
reduction programs by $13 million. That's a 4 percent cut to fire 
prevention--at a time when we're pouring money into firefighting. This 
cut just doesn't make any sense, and I won't support it. In fact, I 
plan to increase funds for fuels reduction in the fiscal year 2010 
Interior bill.
    I am also concerned that the request funds fire preparedness 
programs at $675 million, equal to the enacted level. That means that 
the Forest Service will be forced to shift more costs for firefighter 
salaries and equipment to the fire suppression program--further driving 
up the 10-year average.
    The request funds operating programs for national forests at $1.5 
billion, also equal to last year. That means important programs like 
forest products and law enforcement are being cut back. And other 
cooperative programs face the chopping block, including a 6 percent cut 
to State and local fire assistance and a 4 percent cut to programs that 
fight insects and disease.
    In short, I think these programs deserve more support--and I plan 
to ensure that the rising tide of this budget lifts all of the agency's 
programs, not just a select few.
    Now I'd like to turn to my Ranking Member, Senator Alexander, for 
any comments that he wishes to make.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman.
    Chief, it is nice to see you and to discuss the Forest 
Service.
    I completely agree with the chairman about fire. It is an 
essential part of the Forest Service program, but we don't want 
to see the U.S. Forest Service become the U.S. fire department. 
And I am also glad to see that because of the chairman's hard 
work especially, there is more money to deal with fires this 
year.
    In the East, we don't have as many public lands and Forest 
Service lands as we do in the West. And most of the Forest 
Service lands I notice, looking at the map, run up the 
Appalachian Ridge. They start down in Georgia and run up 
through in and around the Smokies, where I live, where you have 
the Cherokee National Forest. But then there is the Blue Ridge 
Parkway and on up through Pennsylvania and into the area where 
you come from, with the White Mountains and the Green 
Mountains.
    So I have a couple of questions about renewable energy that 
I would like to ask you, and then I would like to follow up, 
ask you if you don't have the answers today to perhaps provide 
me with the answers later.
    And let me start with an opportunity I think I see, and 
that is the use of biomass--wood products, wood chips--from 
Forest Service areas to create electricity by burning them. 
What are the opportunities that you see for biomass on Forest 
Service lands that might--and what might that have to do with 
reducing the danger of fire?

                  SUMMARY STATEMENT OF ABIGAIL KIMBALL

    Ms. Kimbell. Thank you, Senator.
    The Forest Service worked with a number of different 
partners to produce what we call the ``million ton report,'' 
and that has been updated. And from forested lands in the 
United States--Ron is going to produce here in a minute that 
sheet that has the numbers, the millions of tons that are 
available from sustainably managed forests across the United 
States.
    Senator Alexander. Oh, pardon me, Chief. I got carried 
away. I had about finished my opening statement, and the 
questions will come next. I was so enthusiastic.
    Ms. Kimbell. Okay.
    Senator Alexander. So I thank you for being here. Those 
will be the two areas that I would like to explore. And why 
don't we go now to the chairman, and then I will take questions 
next.
    Senator Feinstein. I am fine with you doing that, and I 
will go after you. Go right ahead, please.
    Senator Alexander. Are you? Well----
    Senator Feinstein. I am. I wouldn't say it if I wasn't.
    Senator Alexander. I think you would.
    In fact, I know you would. That is a great courtesy. Excuse 
me for doing that.
    But go ahead with your comment on biomass.

                                BIOMASS

    Ms. Kimbell. There is a biomass study that has just 
recently been updated and will be published shortly. And where 
it talks about forests in the United States being able to 
provide about 40 million tons of oven-dried biomass per year 
from sustainably managed forests.
    So that assumes things like nutrient cycling, maintenance 
of biodiversity, water quality, wildlife habitat. It assumes 
sustainable management. So 40 million tons, and this could 
produce the equivalent of about 4 billion gallons of biofuel.
    And for Tennessee alone, Tennessee could produce 2.5 
million tons, or 5 percent of the Nation's total of oven-dried 
biomass from sustainably managed forests.
    Senator Alexander. You would think of it as used for fuel 
rather than electricity?
    Ms. Kimbell. It could be--this report will actually lay it 
out in a lot of different possibilities, but either for fuel or 
for the generation of electricity.

                            RENEWABLE ENERGY

    Senator Alexander. Well, that is very helpful. I would like 
to try to get that into some perspective, and that puts it 
there. I mean, that sounds like a lot.
    On the other hand, I believe I remember--I will have to 
check my figures--that the new Southern Company's 100-megawatt 
electric plant would take 1 million tons a year just to keep it 
going of biomass. And that 100 megawatts isn't much. I mean, 
that is about \1/12\ of 1 unit of a nuclear plant. But that 
would be very helpful.
    Now let me move to another part of the renewable, and then 
that will be my other part of the question. I noticed on the 
sheet that I got, and the chairman and I have talked about this 
in general. This is the cover, Madam Chairman, of the Forest 
Service summary of all of its activities. You selected a 
beautiful view. And----
    Senator Feinstein. It might be California.
    Senator Alexander. Might be. It might be.
    Or it could be the Appalachian Range, but let us say it is 
California. And so, my concern is, and I will just speak for 
myself, is that I would like very much for us to have in this 
country as much renewable energy as we reasonably and 
appropriately can. I think, for example, biomass may be 
especially appropriate for Forest Service lands.
    But on the other hand, when I think of wind turbines, for 
example, they are three times as tall as the football stadium 
the University of Tennessee has in Knoxville, and the blades 
are as long as the football field, and you can see them for 20 
miles. And in our part of the world, they don't produce much 
electricity because the wind doesn't blow very much.
    But my concern more is with the landscape. I mean, here is 
a picture of Mars Hill, a big wind turbine right up on the 
Appalachian Trail. And I think about the time when I was on the 
Energy Committee, Madam Chairman, and someone pointed out that 
the Yellowstone Park director put a big cell tower right in 
front of Old Faithful.
    And so, my question is what does viewscape have to do with 
decisions, as you are making them, about the siting of 
renewable energy facilities like wind facilities or along the 
Appalachian Trail or solar facilities perhaps in the West, 
where it might make a difference there?
    Ms. Kimbell. The siting of any facility or any project on 
national forest goes through the environmental analysis process 
and can be documented in a number of different ways. But 
certainly, visual quality is something that is assessed for 
every project that is implemented on national forest.
    So for the siting of a cell tower, the siting of a 
windmill, the siting of a vegetation management project, the 
visual characteristics and the visual impacts of that project 
are taken into consideration in the environmental analysis and 
certainly is discussed in the public involvement and public 
input.
    And as you point out, there are some things that stand out 
more than others, and those things attract a lot of discussion 
and attention through the public involvement process and are 
considered very much in the decision to be made by the line 
officer.
    Currently, we have two proposals being considered on 
National Forest System lands--one in Vermont on the Green 
Mountain National Forest, one in Michigan on the Huron-Manistee 
National Forest. There are other locations across the National 
Forest System where there are considerations. There are permit 
applications being considered to set up the towers that would 
actually monitor wind energy and climatic conditions over a 
period of 3 to 5 years before anybody would even submit a 
permit to develop.
    But the permits to develop are in--the permit applications 
are in Vermont and Michigan, and there is public involvement, 
public comment being taken on the project in Vermont right now. 
And the forest supervisor will be considering all of that 
public comment, along with the rest of the environmental 
analysis in making a determination about whether or not there 
will be turbines sited on the Green Mountain National Forest.
    Senator Alexander. Thank you. I will come back with other 
questions later.
    Thank you, Madam Chairman.

                         FIREFIGHTER RETENTION

    Senator Feinstein. Thank you very much, Senator.
    Chief, I wanted to ask you a couple of things. Let me do 
the California material first, and that begins with the 
firefighter retention challenge.
    As I understand it, as of April 1, a CAL FIRE rank-and-file 
firefighter earned $64,760, nearly 15 percent more than a 
comparable Forest Service firefighter, which averages $56,096. 
And disparities at the captain level were even greater and 
reached $18,000 last year.
    In the continuing resolution, you provided--or we provided 
$25 million to address the problem. We then provided an 
additional $3 million in the fiscal year 2009 omnibus and 
required the agency to provide a spending plan for these funds.
    Now since then, my understanding is that you have 
implemented two main strategies--a 10 percent bonus for the GS-
5 to -8, the rank-and-file firefighters, and a conversion of 
part-time firefighters to full-time status. As of January, you 
had 4,205 firefighters onboard out of a total of 4,432.
    Now I am concerned because I think this is going to be a 
big fire year again in my State, and we need to have the 
Federal service up to par. Can you tell us that it will be?
    Ms. Kimbell. Absolutely. The firefighting effectiveness of 
the Forest Service will be up to par, is up to par for this 
oncoming season. We have been fighting fire all year across the 
South into the Southwest. And with the fire just recently in 
Santa Barbara, it was very early season but tested the 
responsiveness of the State of California, the local fire 
departments and the U.S. Forest Service.
    With the retention bonus that was provided to those grades 
5 through 8, where we saw perhaps the greatest difference in 
recruitment and retention between the Forest Service and the 
State of California, that is where we focused that retention 
bonus. And with extending tours of duty to be yearlong, it 
allowed employees then to participate in things like health 
benefits and retirement benefits yearlong rather than the 9-
month season or 6-month season that they might have been 
employed.
    It does add duties. They will be working on nonfire-related 
activities when it is no longer fire season.
    In looking at the number of firefighters in California, I 
still have to consider the number of firefighters across the 
border in Arizona, firefighters in Oregon, Nevada. When we do 
have a fire event, we bring in trained, experienced 
firefighters from all over the country. And certainly, we have 
hosted folks from all over in California over the last couple 
of years.
    I would like to--I want to believe that we won't have that 
kind of season this year, but the numbers certainly indicate 
that it will be a long season.

                 NATIONAL FORESTS BORDERING LAKE TAHOE

    Senator Feinstein. Both the Governor of Nevada and the 
Governor of California have declared the Tahoe forests, the 
three national forests around Tahoe, in a state of emergency. I 
am very concerned. When I have been to the lake--which is rare, 
I must say--but when I can go, I notice very little burning 
activity.
    I am told that this is done by contractors, and that 
contracting, seems to me, is really not what it should be. Can 
you respond to that? I mean, these forests have to get cleaned 
out of dead, dying, and down. And they aren't being, and that 
is just a fact.
    Ms. Kimbell. I just recently had the opportunity to visit 
with Terri Marceron, who is our forest supervisor in South Lake 
Tahoe. She was in here in Washington, DC, and I believe she met 
with staff from your office and with a number of other folks 
here in Washington, DC.
    And Terri shared a pretty unique program that she has 
implemented there on the Lake Tahoe basin unit, where she is 
working with two counties in California and with the prison in 
Nevada to actually have woody biomass removed. So rather than 
burning piles, we actually have crews that are packing those 
piles out of the forest and hauling them to cogeneration 
facilities.
    Senator Feinstein. Okay. I am going back to the same trail 
that I broke my ankle on last year----
    Ms. Kimbell. I think I have a briefing paper on that.
    Senator Feinstein [continuing]. Again this year. And when I 
last went, there had been some burning of piles. But there were 
10,000 piles. And they have been there for 3 years now, and 
they themselves are a fire hazard. And this is the Meeks Bay 
Trail.
    Ms. Kimbell. Yes.
    Senator Feinstein. So I am going to be watching. I am 
terribly worried about these forests because we have got a lot 
of bark beetle. We have got a lot of dead trees. We have had 
one fire. And the winds are westerly. They come over the Sierra 
Nevadas, and they blow right down into the homes and into the 
lake. And so, I hope you will give this your attention.
    I would like to talk to you for a moment about the MAFFS 
units.
    Ms. Kimbell. Yes.

              MODULAR AIRBORNE FIREFIGHTING SYSTEM (MAFFS)

    Senator Feinstein. Particularly the new MAFFS units. You 
are way down in planes. I don't have it right now, but I did 
have it. You have gone from something like 44 to 19 planes. And 
these MAFFS units are vital. Where are they in the United 
States, and are they available now, the big ones, the new ones?
    Ms. Kimbell. The new ones, I think they are called the 
MAFFS II units----
    Senator Feinstein. Right.
    Ms. Kimbell [continuing]. There are a number of them 
available. Aero Union is doing the work on that. We expect to 
have eight, a combination of the old MAFFS and new MAFFS units 
in service for this fire season, but not all of the new units 
that Aero Union has been developing, not all those units are 
going to be online.
    But we do expect to have eight MAFFS units online for 
firefighting this season.
    Senator Feinstein. And where will they be located?
    Ms. Kimbell. They are based in California, Nevada, and 
Wyoming and North Carolina are training on the original MAFFS 
systems with the Air Force Reserve and Air National Guard. And 
Colorado Springs is training on the MAFFS II systems.
    Senator Feinstein. So there are two for each of these 
bases, each where they are based?
    Ms. Kimbell. Yes.
    Senator Feinstein. Is that right?
    Ms. Kimbell. Yes. So I misspoke. Nevada is not in there.
    Senator Feinstein. Okay. How many are operational now?
    Ms. Kimbell. Eight.
    Senator Feinstein. Are operational now. The training is 
done, and they can fly?
    Ms. Kimbell. Yes, the training is ongoing because some of 
these fire seasons aren't--even though southern California 
started very early, we still have a lot of snow in the Rockies 
and across different places in the country. So I am not sure of 
the exact status of the training, but we could certainly get 
that for you.
    [The information follows:]

    MAFFS training for 2009 is complete. We have eight MAFFS available 
for 2009. Two MAFFS are stationed at each of the following locations: 
California (Port Hueneme), Wyoming (Cheyenne), Colorado (Colorado 
Springs), and North Carolina (Charlotte).

    Senator Feinstein. I would appreciate that. California is 
now in a perpetual drought, and things are very dry. And many 
of us are very worried about what this year will bring, and I 
just want to say that to the head person.
    Ms. Kimbell. Thank you.
    Senator Feinstein. That I believe it does need some special 
attention. We have lost 3 million acres in the last 2 years 
from wildfire, and what we find is the Santa Anas are blowing 
hotter. And as you know, in 2008, we had 8,000 lightning 
strikes on a given day, which started some 2,000 fires.
    I flew out with the President, flew over Shasta, and it was 
like a moonscape. Everything was burned, all around the 
reservoir. It was just--it was a horror to behold. And I think 
we are on an increasing crescendo with respect to fire in this 
State.
    So I would very much appreciate and welcome your attention 
to it.
    Ms. Kimbell. Absolutely. And Senator, if there is an 
opportunity to visit the Meeks Trail together, I would love to 
do that, and I hope that we do get the opportunity----
    Senator Feinstein. This weekend?
    Ms. Kimbell. Oh.
    I guess it would be free of snow, wouldn't it?
    Thank you so much. Thank you, Chairman.
    Senator Feinstein. Senator Alexander, you had additional 
questions?

                                BIOMASS

    Senator Alexander. Thank you, Madam Chairman.
    If I could go back to the discussion we were having before, 
I want to make sure I understood what you said. I believe you 
said your report showed that there would be 40 million tons of 
biomass a year, is that right, in the entire Forest Service 
lands?
    Ms. Kimbell. That is all forest lands. Forty million tons 
of oven-dried woody biomass would be available across the 
country from sustainably managed forests.
    Senator Alexander. Oven-dried woody what?
    Ms. Kimbell. Woody biomass.
    Senator Alexander. And that is all forests?
    Ms. Kimbell. That is all forests.
    Senator Alexander. Not just the national----
    Ms. Kimbell. Not just national forests.
    Senator Alexander. Forty million tons. And you said in 
Tennessee, it was 2.5 million tons?
    Ms. Kimbell. Two and one-half million tons.
    Senator Alexander. A year?
    Ms. Kimbell. A year.
    Senator Alexander. All right. Now the questions--well, 
would it help with fire prevention if this biomass were removed 
from the forests?
    Ms. Kimbell. Absolutely. And this has been a major focus of 
our hazardous fuel reduction over the last 10 years, and there 
are many more acres that need treatment. The estimates have run 
from 40 to 60 million acres. There are some estimates that are 
much higher.
    But there is definitely a need for treatment of acres 
across national forests, BLM, private lands. Certainly, we are 
doing a much better job today of working across landscapes than 
we were 10 years ago, just given this issue with fire and fire 
potential and the woody biomass that is on the ground. But 
having a market for this woody biomass is really critical to 
make this cost effective for the American taxpayer.
    Senator Alexander. Now the 40 million tons is on the 
ground. You are not talking about dead or dying trees?
    Ms. Kimbell. Oh, no. That does include dead and dying.
    Senator Alexander. It does include dead and dying trees. So 
you would like to see some biomass plants that would take large 
amounts of this oven-dried woody biomass and turn it into 
either fuel or electricity? That would be a help to the fire 
prevention and other aspects of your operation?
    Ms. Kimbell. Absolutely. Having a market for this woody 
biomass is really critical to make it cost effective.
    Senator Alexander. Can you tell me what size powerplant, in 
your estimation--and maybe this is a question for the 
Department of Energy--what size powerplant for electricity that 
40 million tons of oven-dried woody biomass would operate every 
year? You don't need to tell me now.
    Give me some idea of the kind of roads and trucks that 
would be involved in the hauling of all this stuff to plants. 
And any sort of judgment about whether, in the end, that whole 
process is carbon neutral?
    Ms. Kimbell. And actually, we have a couple of research 
projects that are going on, one in California, where we are 
trying to assess just exactly that. And hopefully, we will have 
results from that study. But, yes, we can provide you with that 
information.
    Senator Alexander. That would be very helpful to me because 
I think it would give all of us a lot of good information. It 
may be well worth doing even if it isn't carbon neutral, but if 
it also is carbon neutral, that would fit into the national 
debate.
    [The information follows:]

    The generating capacity depends on the facility design and 
conversion technologies used and their associated efficiencies. Some 
technologies have been proven for woody biomass through commercial 
deployment and use, while others are in the research, development, or 
testing stages. Based on conversion and efficiency factors for the 
proven technology of stand-alone wood biomass fired steam turbine 
system, and the Energy Information Administration, 40 million oven dry 
tons available annually would support an estimate of approximately 
4,550 MW generating capacity. Depending on facility design and 
operating hours, the amount could be less.
    The existing transportation infrastructure including roads and 
highways, rail, and barge, would be expected to be involved in 
delivering material to conversion facilities. It is important to 
consider that the logging operations infrastructure must be healthy and 
in place to enable sustainable harvest of the material. Life-cycle 
analysis of the biomass energy supply chain is an active area of 
research for the Forest Service and our partners. Results of forest 
management and harvest lifecycle analysis in the Pacific Northwest and 
Southeastern United States obtained to date indicate that greenhouse 
gas emissions vary between 2.5 and 12.5 percent of carbon in the wood, 
depending on management regime and transportation.

                      SITING WIND ENERGY TURBINES

    Senator Alexander. And then my last questions have to do 
with the mountaintops. And different regions of the country 
have more appropriate renewable energy. Biomass may very well 
be an appropriate one for the southeastern United States, which 
is why the Southern plant south of TVA is building its 100-
megawatt plant.
    In the West, it may be that large wind turbines are fine. I 
know at Rocky Flats, they are down on the ground. But my 
impression is that all of the class I wind areas in the Eastern 
United States are on ridge tops. Is that your impression as 
well?
    Ms. Kimbell. And I have not studied that issue carefully. 
No, I don't know.
    Senator Alexander. Well, that is my impression. And so, we 
would end up putting these massive machines on ridge tops in 
many parts of the area where the wind doesn't blow very well. 
So the questions I would like for you to try to answer for me, 
which you did to some direction, is how will your directives 
take into account the importance of protecting viewsheds?
    I mean, in our part of the world, we buy houses and live on 
roads that are named Scenic Drive and Lookout Mountain and Blue 
Ridge Parkway, and not 500-foot, 50-story tower, ``wind tower 
parkway'' with the flashing lights. How closely are you working 
with the Department of the Interior on drafting your policy?
    Should these decisions along the ridge tops of Appalachia 
from Georgia to Maine all be made by individual park 
supervisors, or should there be some review at the national 
level? Would it make more sense to first study and review all 
these lands and then come to some conclusion about what we do?
    I think you can see my own personal view is I think it is a 
preposterous idea to take land we have set aside for recreation 
and scenic and other uses and clutter it with eyesores that 
don't produce much electricity. Even if they did produce 
electricity, I think the people of our region would not want to 
see that.
    I mean, we are spending up to $40 million, for example, to 
acquire Rocky Fork in the Cherokee National Forest, and then 
the very idea of coming and putting in 50-story towers with 
long transmission lines seems to me to be a preposterous 
notion. So I would like to find some way to get an intelligent 
set of--a framework within which we can consider the 
appropriate siting of renewable energy, such as wind, on the 
Appalachian chain running from Georgia up through Maine.
    What are those considerations, and how do we make choices 
between biomass, which, in our region, seems to be a very 
appropriate form of renewable energy, and wind turbines on 
ridge tops, which seems to me not to be?
    Ms. Kimbell. Well, I believe there are two things. I think 
this whole address to energy and alternative energy is far more 
complex than maybe we have all acknowledged yet. But just all 
the different complexities with--that come with some of these 
different alternative energy sources is something that we do 
need a larger discussion about, more discussion as we talk 
about energy independence in the country.
    And yet there are still questions about where is it 
appropriate to drill for oil? Where is it appropriate to put 
out solar panel arrays? Where is it appropriate for wind 
turbines? And when are public lands appropriate for any of 
those? I think that is part of a much larger discussion that we 
are going to need to have.
    We have had some public discussion about transmission 
lines, and yet still there needs to be discussion about all 
these different energy independence opportunities.
    For wind energy, the Forest Service in 2007 posted in the 
Federal Register a proposed directive. It was to help our field 
organization have some consistency for how they evaluated wind 
energy proposals on National Forest System lands.
    We received more than 5,000 comments. We have been 
reviewing those comments. We are discussing those with the 
Department of Agriculture. We have worked closely with the BLM 
through this whole process of preparing this consistent 
direction to provide to our field for evaluating wind 
proposals.
    But always those--any of those proposals would have to be 
considered in the context of the forest plans, and those forest 
plans lay out how sustainability will be addressed on that 
particular national forest and always visual characteristics 
are something that are considered with each proposal that comes 
in as when it is evaluated for how well it meets the forest 
plan.
    So there needs to be this much larger discussion, and at 
the same time, this directive for how to analyze wind proposals 
on National Forest System land is something that we hope to 
have clarified and to the field here very soon.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Before turning to Senator Tester, Chief, would you please 
submit your statement for the record?
    Ms. Kimbell. Okay.
    Senator Feinstein. And it will be included in the record.
    Ms. Kimbell. And I do have a written statement and----
    Senator Feinstein. That is what I am referring to, right.

                           PREPARED STATEMENT

    Ms. Kimbell. Thank you. And I would like to submit it for 
the record. Thank you.
    Senator Feinstein. Yes, right. Thank you.
    [The statement follows:]
                 Prepared Statement of Abigail Kimbell
    Madam Chairwoman and members of the subcommittee, it is a privilege 
to be here today to discuss the President's budget request for the 
Forest Service in fiscal year 2010. I appreciate the significant 
support this subcommittee has repeatedly demonstrated for the Forest 
Service. Working together, this subcommittee and the Forest Service 
have served the public good by addressing issues from loss of open 
space to wildfire, from crime on national forestland to improving fish 
and other aquatic organism passage. With your continued support we will 
keep providing more of the things the American public expects and 
wants.
    With the new administration, the Forest Service advances its 
mission to sustain the Nation's forests and grasslands through direct 
stewardship of the 193 million acres of the National Forest System, 
technical assistance to State and private partners, and science. The 
Forest Service continues to manage the National Forest System to 
provide diverse benefits to the public such as clean water, fish and 
wildlife habitat, recreation, and forest products. The Forest Service 
will make progress in its partnerships with other Federal agencies, 
States, local governments, tribes, and private landowners to sustain 
forests and address climate change and other issues across the 
landscape. The Forest Service will continue to develop innovative tools 
and provide understanding of complex forest ecosystems through its 
unique research program. And the Forest Service will continue to 
advance forest management across the globe in our International 
Programs.
    The fiscal year 2010 President's budget request for the Forest 
Service totals $5.2 billion in discretionary appropriations, a 9 
percent increase over the fiscal year 2009 enacted level. As part of 
the budget, the President is proposing three major initiatives for the 
Forest Service in addition to maintaining essential funding levels for 
critical program areas.
    Before discussing the fiscal year 2010 budget further, I would like 
to thank this committee for your support of our mission by providing 
$1.15 billion to the Forest Service through the American Recovery and 
Reinvestment Act of 2009 (ARRA). The Forest Service is using these 
funds to create over 20,000 new private sector jobs and promote 
economic recovery, especially in those areas which the recession has 
impacted most. In addition to restoring jobs and revitalizing 
economies, the Forest Service ARRA projects will restore the land and 
improve facilities and infrastructure, augmenting critical mission 
objectives for the agency.
                        presidential initiatives
    The fiscal year 2010 budget for the Forest Service includes three 
Presidential initiatives: responsibly budget for wildfire suppression; 
conserve new lands; and Protect the national forests. This suite of 
initiatives addresses the challenges we face, including the three 
themes I identified before last year's budget hearings: climate change, 
water supply and quality, and loss of connection to nature, especially 
for youth.
Responsibly Budget for Wildfire
    Fires in recent years have become larger and more difficult to 
control due to a variety of factors, including climate change; 
persistent drought and hazardous fuels conditions; and the increased 
magnitude and complexity of the wildland urban interface. As these 
factors extend fire seasons and escalate cost, annual fire suppression 
expenditures have routinely exceeded the amount budgeted for 
suppression. Since 2002, the Forest Service has used the authority 
provided by Congress to transfer over $2 billion from other programs to 
fire suppression to cover these costs. Even when the transferred funds 
are repaid through supplemental appropriations, these transfers result 
in significant disruptions in the agency's ability to deliver its 
program of work.
    Our fiscal year 2010 budget proposes a strategy to responsibly 
budget for wildfire that centers on three main tactics: fully fund the 
10-year average suppression costs, establish a discretionary 
contingency reserve account, and ensure fire management resources are 
used in a cost-effective manner in high-priority areas. The budget 
provides additional fire management resources for fire suppression that 
reduce the likelihood or magnitude of transferring funds from other 
critical Forest Service activities should fire costs exceed the 10-year 
average for suppression costs.
    The request to increase the fire suppression budget by $135 million 
over fiscal year 2009, to fully fund the 10-year average for 
suppression costs of $1.1 billion, represents a significant shift in 
budgeting policy. In recent years, the Forest Service budget request 
reduced funding for nonfire programs to maintain funding for the 10-
year average for suppression costs, to meet an overall budget cap. This 
approach was in place even as the 10-year average cost for suppression 
rose by nearly $600 million between fiscal year 2001 and fiscal year 
2008. The approach proposed in the 2010 budget preserves funding for 
the Forest Service's nonsuppression programs despite rising fire costs.
    In addition, the fiscal year 2010 President's budget proposes a 
discretionary wildland fire contingency reserve of $282 million. The 
fund would be available to the Secretary, subject to a Presidential 
finding of need, once the suppression appropriation is exhausted and as 
long as suppression is fully funded at the 10-year average. The fund 
would enable the agency to respond to wildfires which threaten lives, 
property, and resources on more than 210 million acres of agency-
protected lands, while minimizing the potential for the transfer of 
funds from other Forest Service programs to suppression, ensuring that 
resources for other critical Forest Service activities are available. 
The request for the Department of the Interior includes a similar $75 
million proposal.
    Along with fully funding the 10-year average and the wildland fire 
contingent reserve fund, the Forest Service will continue to deploy 
analytic support tools to improve fire incident and program 
decisionmaking, cost containment, and agency accountability. A number 
of wildland fire decision support systems, such as FSPro, which models 
fire behavior, and RAVAR, which models values at risk from fire, 
provide real-time support to fire managers implementing risk-informed 
management.
    The projects accomplished through ARRA will augment these budgetary 
efforts by restoring forests to a State in which they are less prone to 
catastrophic fire. The bill provides $500 million for hazardous fuels 
reduction, forest health protection, rehabilitation, and ecosystem 
improvement. These funds will be evenly divided between Federal and 
non-Federal lands. Up to $50 million of the $500 million are available 
for wood-to-energy grants. These grants are being coordinated with 
hazardous fuels treatments to maximize biomass available for energy 
creation. We anticipate using these funds for hundreds of hazardous 
fuels reduction, forest health, and ecosystem restoration projects 
while creating jobs in economically distressed areas.
Conserve New Lands
    While Americans can take great pride in our existing National 
Forest System and other public lands, there are many landscapes and 
ecosystems at risk. Fifty-seven percent, or 430 million acres, of our 
Nation's forests are privately owned. Family forest owners and other 
landowners are facing increasing pressure to develop their land, which 
fragments ownership and converts environmentally important forests to 
nonforest use. Conservation across a landscape is essential to address 
large-scale conservation issues such as adaptation to climate change, 
conservation of water resources, reduction of wildfire risk, and 
protection of at-risk species.
    The budget includes a $34 million Presidential initiative to 
conserve new lands through the forest legacy program funded from the 
Land and Water Conservation Fund (LWCF). Funded at $91 million for 
fiscal year 2010, the forest legacy program protects forested lands 
under significant development pressures through acquisition of 
conservation easements and fee-simple purchases. The easements acquired 
protect air and water quality, provide access to national forests, and 
provide habitat for threatened or endangered wildlife and fish. This 
budget proposes spending $119 million of the LWCF through the Forest 
Service as part of broader effort to conserve land by increasing LWCF 
appropriations for the Departments of Agriculture and the Interior to 
$420 million.
Protect the National Forests
    The national forests face significant challenges to both protect 
new investments and sustain older infrastructure. Ecologically 
sustainable investments in roads, trails, and facilities made through 
ARRA require resources to protect those new assets through maintenance. 
The National Forest System has a transportation system that is not 
suited to its modern needs and requires realignment to ``right-size'' 
the system for the future. A number of Forest Service facilities have 
urgent health and safety maintenance needs that, if not addressed, 
could result in those facilities' closure.
    The fiscal year 2010 President's budget augments the work to be 
accomplished via the ARRA by including a $50 million Presidential 
initiative to protect the national forests by extending and enhancing 
those investments. This initiative demonstrates the Forest Service's 
commitment to maintaining a healthy environment by addressing critical 
maintenance and operational components of the Forest Service. These 
funds will be a cornerstone for sustaining a healthy environment, and 
will be focused on three priorities which will: protect the investments 
made through the ARRA; implement travel management plans with an 
emphasis on decommissioning unnecessary roads; and address urgent 
health and safety needs at facilities. These strategic investments will 
reduce the agency's overall maintenance and operational costs in future 
years, result in infrastructure that is more energy efficient, and 
reduce potential harm to the environment.
                  focal points for the forest service
Climate Change
    Forests and grasslands produce many ecosystem services on which our 
Nation relies: clean water, clean air, wildlife habitats, biological 
diversity, recreation, and forest products. However, research shows 
that climate change is currently stressing the Nation's ecosystems and 
their ability to provide those services. These effects are very likely 
to accelerate in the future, in some cases destabilizing these forests. 
Disrupted ecosystems could have a decreased ability to provide the 
services upon which Americans rely. Many of the most urgent forest and 
grassland management problems of the past 20 years, such as wildfires, 
changes in water quality and quantity, and expanding forest insect 
infestations, have been driven, in part, by changing climate. The 
effects and magnitude of climate change vary across the country, but we 
must act now to be able to address these issues as they arise.
    The Forest Service will use the best available science to assess 
the influence of climate change on the Nations forests and grasslands. 
We will focus on how climate change affects the forests and grasslands 
as well as how land management can influence the reduction in global 
greenhouse gases. Climate change will be integrated into land 
management plans by describing desired conditions, objectives and 
standards. The Forest Service will also continue research and 
monitoring efforts to improve our understanding of climate change.
    The budget continues support for key programs that enable the 
agency to achieve these goals. The forest and rangeland research 
request includes $27 million for research programs on climate change. 
The fiscal year 2010 budget includes $25 million for revising land 
management plans and $26 million for conducting land management plan 
assessments, which enable national forests to address climate change in 
forest planning. The fiscal year 2010 budget maintains a steady $653 
million for wildlife and fisheries management; vegetation and watershed 
management; and forest products. These programs endow the agency with 
the ability to adapt to climate change's effects on National Forest 
System lands, ensuring resilient ecosystems. In fiscal year 2010, the 
Forest Service will build on a fiscal year 2009 investment of $825,000 
to promote sustainable operations in order to reduce the agency's own 
environmental footprint.
Water
    Our society requires adequate supplies of clean freshwater as a 
source of drinking water and as an engine for both agriculture and 
industry. While freshwater is a renewable resource, it is also a 
limited resource that requires careful stewardship to ensure it will 
meet the needs of present and future generations. In the last few 
years, we have seen the threats of drought to drinking water, forests, 
and agriculture throughout the country, from California to Wisconsin to 
Georgia. With the importance of this vital resource, we must act to 
ensure we are prepared to address the increasing scarcity of clean 
water.
    The Forest Service plays a significant role in management of our 
Nation's water, given that 58 percent of our water supply originates as 
precipitation on forest lands, both on State and private lands and on 
National Forest System lands. Our agency maintains partnerships that 
address nearly 560 million acres of forested watersheds on non-Federal 
lands that provide drinking water to over 138 million people. Another 
70 million people get their drinking water from national forests and 
grasslands.
    To ensure that National Forest System lands can continue to be a 
source for clean water, the Forest Service will conserve, maintain, and 
restore watersheds to sustain the ecosystems they support and the 
services they provide; secure water of sufficient quantity and quality 
to sustain aquatic and terrestrial life; develop and advance knowledge 
and shared learning central to managing forest and grassland water 
resources and watershed conditions expected in the future; and 
facilitate watershed-based partnerships to foster conservation and 
citizen stewardship.
    Currently, we are finalizing an inventory of the issues affecting 
National Forest System water resources, identifying actions that we can 
take to meet this crisis head-on, and developing materials to share 
with the public and our partners.
    The Forest Service supports key programs that position the agency 
to address water-related challenges. The fiscal year 2010 budget 
includes $57 million for managing aquatic habitat and $60 million for 
maintaining and improving watershed conditions. These programs provide 
the base for efforts integrated across many other programs that secure 
ample supplies of clean water.
Kids in the Woods
    As our Nation and especially our Nation's children develop more 
sedentary or more urban habits, we risk being disconnected from our 
environment. Being active in nature establishes healthy habitats and 
creates personal connections to nature, fostering a conservation ethic. 
Our Nation's urban and rural forests offer the setting for those active 
outdoor experiences, elucidating the contribution that the Forest 
Service can make to the national movement to bring children to nature 
and nature to children.
    The Forest Service budget maintains funding to engage children in 
outdoor activities that will establish a meaningful and lasting 
connection to nature. The Forest Service has been active in youth 
contact programs for decades and is active in communities throughout 
the United States. The fiscal year 2010 budget continues a $500,000 
investment for the More Kids in the Woods cost-share award program. In 
fiscal year 2008, the program, in its second year, leveraged a 3:1 
ratio of funds on 16 projects that engaged 20,000 youth with nature. 
Beyond the work done through the More Kids in the Woods cost-share 
program, the budget provides $29 million for urban and community 
forestry and $5 million for recreation research, programs that support 
this effort. The budget continues steady funding levels for recreation 
of $280 million and wildlife interpretation and education of $9 
million, forming a base of work for this effort on national forests. In 
fiscal year 2010, the Forest Service will emphasize delivery of 
conservation education programs to underserved communities in urban and 
rural settings.
                               conclusion
    The Forest Service presents its fiscal year 2010 budget positioned 
to fulfill its mission of sustaining the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations. The budget supports the priorities 
of responsible budgeting for wildfires; of proactively addressing 
infrastructure needs to protect Forest Service facilities, roads, and 
trails; of conserving new lands; and of responding to climate change. 
This suite of monetary and management emphases enable the Forest 
Service to adapt to future challenges while continuing to conduct 
ground-breaking research, provide vital assistance to landowners and 
resource managers, and sustainably steward national forests and 
grasslands. Thank you and I look forward to our dialogue today.

    Senator Feinstein. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Madam Chair.
    And it is good to have you here, Gail. I appreciate the 
opportunity to visit with you a little bit about what is going 
on.

                       HAZARDOUS FUELS TREATMENT

    And I know that Senator Feinstein talked a little bit about 
fire, and I am going to probably spend a little more time on 
that. Real quickly, looking at the budget, there is a 14 
percent increase in fire suppression. There is a $218 million 
suppression contingency amount. There is about $2.5 billion of 
the $5.2 billion budget that is going to go for wild land fire 
management.
    In Montana, and I think fair to say in a lot of other areas 
in the United States, we are experiencing a lot of disease, a 
lot of beetle kill. I flew up from Salt Lake to Great Falls 
here a month ago, looked down. That forest is dead. It is 
primarily a different color of green than what you see, and 
that is not a good thing.
    Are those kind of dollars adequate, and I am not talking--I 
think a lightning strike and a good wind, and you are not going 
to have enough money to fight anything. It is going to burn.
    But are those kind of dollars adequate not only to take 
care of regular fires, but also, more importantly, deal with 
the forest management that has to be done in our national 
forests?
    Ms. Kimbell. Well, I probably need to preface that with 
thanking the subcommittee for your support to the Forest 
Service for including us in the ARRA and the $250 million that 
is focused on hazardous fuel reduction work on National Forest 
System lands. That will be a tremendous help through 2009, 2010 
in addressing some of those hazardous fuel loading on National 
Forest System lands.
    This budget, the 2010 budget, though, is a far better 
starting point than I have been able to present to you in my 
whole tenure as chief. It does hold vegetation management flat. 
It does hold all of the National Forest System programs 
essentially flat.
    So it doesn't increase the level of activity in forest 
management work, active management work on the ground, though 
the $250 million from ARRA will be a tremendous help.
    Senator Feinstein. We may just change that, Senator, and 
increase it.

                       COLLABORATIVE PARTNERSHIPS

    Senator Tester. Okay. And I would say this--and this is no 
reflection on you, Gail. The bar was pretty low on some of 
these previous budgets. I would just tell you that.
    So I will shift gears a little bit because I know Senator 
Feinstein has the same issues with fire in the forests that we 
do in Montana, in California, and there are other areas, too.
    I want to talk a little bit about collaborative 
partnerships and how the Forest Service views groups like 
Beaverhead-Deerlodge, Quincy Library Group (QLP), Yak, and 
Blackfoot. How do you deal with those? Do you have a set of 
operating procedures to deal with collaborative groups that 
want to help, but yet you have the job, they don't?
    Ms. Kimbell. Every one of them is different because of the 
local needs, the local interests, the local energy that people 
bring to it. We encourage all folks considering in pulling 
together a collaborative group to make it as diverse as 
possible to include the diversity of interests in those public 
lands. We really welcome the energy that comes with those.
    One that happened in Montana was the group that has been 
meeting to develop restoration guidelines for Ponderosa Pine in 
western Montana, and it was a very difficult and yet fabulous 
exercise in bringing people together from all different 
interest areas to put together a common set of restoration 
guidelines. It has been fabulous work and very, very helpful.
    Senator Tester. Are you able to utilize--I mean, I think 
these folks are an asset, from my perspective, but I don't sit 
in the chair you are sitting in. Are you able to utilize when 
they do get collaborative groups together and come up with an 
agreement? How do you utilize those recommendations?
    Ms. Kimbell. The greater the diversity in the group, the 
more useful the information. So that if a group has worked to 
include the breadth of interests that we need to include when 
we consider different activities on national forests, it makes 
it more readily transferable.

                     STIMULUS PROJECTS CONTRACTING

    Senator Tester. I wanted to ask just a little bit on the 
stimulus jobs recovery monies. Away from the fire management 
for a second, then we will get back to it. But if my time has 
run out, we can come back.
    Senator Feinstein. Please, go ahead.
    Senator Tester. Okay. We can come back to this. But those 
monies are there for two reasons. Number one, it is to get 
people employed in areas where there is high unemployment and 
depressed economic conditions. And the other thing, in your 
particular case, is to get the forests cleaned up.
    Is there any assurance that, for instance, there is a fair 
amount of money that is going to be heading up to the area 
around the Yak and Libby. Can you give me any assurances that 
those jobs for cleanup, those chainsaws that are going to be in 
the forests that are going to be doing the hazardous fuel 
reduction will actually go to anybody from that area?
    Ms. Kimbell. All of these projects that are contracted will 
be contracted using the Federal acquisition regulations. And 
so, there aren't special regulations that apply to these ARRA 
projects. We expect that given places like Libby, Troy, and 
Yak, that there are a lot of people trained in those different 
kinds of activities who can compete for those jobs. But there 
is no guarantee, no, that they will go to local people.
    Senator Tester. How is the Forest Service--how are they 
letting local residents know? I mean, the people who typically 
contract, they know all the rules. They know all the hoops to 
jump through. The guy that is trying to feed his family with a 
chainsaw sitting in his hand doesn't have a whole bunch of the 
bureaucratic experience, number one, and, number two, maybe 
doesn't even have the time because he is probably working--or 
she is probably working--several other jobs.
    So how is the Forest Service reaching out in these local 
communities to let people know how to be a part of the puzzle?
    Ms. Kimbell. And I can probably get for you something far 
more specific because what I could give you today would be 
anecdotal.
    [The information follows:]

    ARRA legislation requires that we, to the maximum extent possible, 
award contracts on a competitive basis. In doing so we cannot predict 
nor directly control who is the successful bidder. We do, however, 
award based on best value, and part of the best value evaluation is the 
economic impact on small local communities. This impact can be as a 
result of direct employment, subcontracts, and purchase of supplies 
from local sources.
    On March 10, 2009, the Director of the Forest Service Acquisition 
Management Staff sent a letter to Forest Service leadership asking that 
they be innovative in preparing projects for contracts, grants, or 
agreements funded by the Recovery Act. The letter stated the following:

    ``The Forest Service is in a unique position to focus our spending 
in communities near public lands, which are unlikely to receive funding 
from other agencies. Many of these communities have high poverty rates 
and chronically high unemployment rates. The closure of just one or two 
businesses in these areas can spike local unemployment rates.
    I encourage you to be innovative in your approach to project design 
and layout, project packaging, solicitation methods, and awarding of 
grants and agreements in order to maximize economic benefit for the 
hardest hit communities.''

    Senator Tester. That would be fine.
    Ms. Kimbell. Okay.
    Senator Tester. That would be fine. I just want to make 
sure that they have a shot. Sometimes the best-laid plans end 
up going--and I agree you have to be competitive--but if you 
don't know how to get through the door, you can't be 
competitive. That is all.
    And I am not saying that is the case here at all. I just 
want to make sure that they get a shot at it.
    Ms. Kimbell. Well, my focus with ARRA from the beginning 
has been jobs, jobs, jobs. And I know that at the local level, 
our rangers, our forest supervisors, our people in the local 
communities have been talking to people and even putting 
together their project submittals and all, looking at the 
capacity in the community and really working to play to that 
capacity.
    Senator Tester. I really appreciate that. I will tell you 
in the area I am talking about, you are talking unemployment up 
16 percent and above.
    Ms. Kimbell. Yes.
    Senator Tester. And these folks are skilled, but the wood 
products industry has tanked. You know that.
    Ms. Kimbell. Yes.
    Senator Tester. And so that we could not only put people to 
work doing good work, but these folks are used to working hard 
and they are used to working with their hands.
    So thank you.
    Ms. Kimbell. Thank you, Senator.

                          QUINCY LIBRARY GROUP

    Senator Feinstein. Thank you very much, Senator Tester.
    I would like to ask one last question on a subject that I 
have had a good deal of conversation with of your forest 
supervisors, and that is the Quincy Library Group, which has 
been a very frustrating exercise.
    You know, Quincy was supposed to be about collaboration. We 
had terrible fires up in the Lassen and the Plumas forests. And 
you had the environmentalists on one side, and you had people 
who own property, who were business people on the other. And 
so, they went to the only place where they couldn't yell at 
each other, and that was the Quincy Library. And for years, 
they worked to collaborate and work out an agreement.
    And the agreement was based on putting in firebreaks in 
areas that were critical, where you could get some timbering 
from those firebreaks but, at the same time, prevent the kind 
of catastrophic hot fire, which was now built up by the 
nonnative growth down below and really taking out the canopies 
of old growth, as well as any endangered species that happened 
to reside in those canopies. And they came up with a project, 
and now it has been lawsuit after lawsuit after lawsuit.
    So I met with some of your supervisors--interestingly 
enough, all women--and it was very interesting for me and 
wonderful to see in San Francisco recently. And we went over 
how there was effective collaboration in at least two of the 
forests and, I think, some problems in the third.
    But the bottom line was that the Forest Service has 
provided my staff yesterday acreage targets having to do with 
the Lassen, which runs around 22,000 acres; the Plumas, which 
is about 7,000 acres to be treated; and the Tahoe, which is 
about 3,900 or 4,700 acres. And yet there are a number that 
still need to be agreed upon.
    And I would like to ask for your oversight in seeing that 
that gets done. Again, the worry is that we have another 
catastrophic fire, and this has been years and years of trying 
to work this out.
    Ms. Kimbell. And Senator, last year, I had the opportunity 
to be there on the Shasta-Trinity National Forest and then on 
the Plumas during that great big fire event following the June 
21 lightning storm. And I got to be in one of those areas where 
the Quincy Library Group had struggled for so long to come to 
agreement as to how it might be managed, and it had finally 
made it through all the legal process and then got caught up in 
one of those fires and burned hard. Burned very, very hard.
    I was there with the forest supervisor and the district 
ranger, and that was----
    Senator Feinstein. So if we had done it 10 years ago, when 
we tried to do it?
    Ms. Kimbell. The fire may not have been as big as it was or 
as hot as it was, and the damage that it did to the watershed. 
So this year, we are expecting to treat overall with Quincy 
Library Group 30 projects, 18,000 acres, and there is the 
potential for more if there are some things that can work 
through the collaboration. And we are very hopeful.
    Senator Feinstein. Let me ask you, is that enough to keep a 
mill alive and the jobs or not?
    Ms. Kimbell. It is 150,000 million board feet. That is a 
lot of wood, and yet given the market conditions across the 
country, it is still very difficult to keep a market alive when 
the Random Lengths Index is so very low. And with all the 
announcements that have been coming from California and from 
Montana about the competitiveness in the world, it really makes 
it hard to keep a mill open in the United States.
    Senator Feinstein. I just want to say I very much welcome 
your oversight and trying to push people. You know, there is an 
effort at collaboration. There is an effort at compromise.
    Ms. Kimbell. Yes.
    Senator Feinstein. And it seems to me that unless--if this 
fails, the only alternative is for us to go ahead with very 
stringent legislation like a categorical exemption, which 
nobody wants to do. But that is all we are left with if these 
fires keep happening, and you have got the collaboration 
between the environmentalists and others to try to solve the 
problem and they can't solve the problem.
    Ms. Kimbell. And we very much want QLG to be successful, as 
well as a number of other collaborative groups. These are 
people giving their own time, coming together weekend after 
weekend or Tuesday night after Tuesday, drinking bad coffee 
to--well, I don't know. Maybe they drink good coffee?
    Senator Feinstein. I have spoken to Senator Tester about 
this, and he has the same issues in his State. There, he really 
believes that collaboration is going to work, and I hope that 
is true because there are so many problems in these forests.
    Ms. Kimbell. Yes, and having the social license to be able 
to do the work we need to do to be able to avoid this kind of 
catastrophic damage that we have been seeing over the last 10 
years from wildfire is very, very important. We need to have a 
market that will be able to use these materials that we remove, 
and we need to have the social license to be able to remove 
those materials.
    And these collaborative groups have been a tremendous help 
in moving some of that forward.
    Senator Feinstein. That is right. Thank you.
    Senator, do you have additional questions?
    If I may, I am going to turn this hearing over to you----
    Senator Alexander. And I will be right behind you.
    Senator Feinstein [continuing]. And then if you have to 
leave?
    Senator Alexander. Jon, do you have any other questions?
    Senator Tester. I don't. Thank you.
    Senator Feinstein. I have to go to the floor. So----
    Senator Alexander. Well, I don't really have another 
question. I think you have been very helpful.
    Thank you, Madam Chair.
    Senator Feinstein. May I say thank you, Chief, very, very 
much. I have come to watch you and know you over the years and 
really believe you are doing a good job.
    Ms. Kimbell. Thank you, Madam Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. And I want to thank all of your staff 
and people for this. American forests are very important to us, 
and the work you do is very much appreciated.
    So thank you, and thank you very much.
    Ms. Kimbell. Thanks so much, Madam Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
                                 fuels
    Question. Since 2006, more than 3 million acres have burned in my 
home State of California alone. It's clear that more progress must be 
made to treat hazardous fuels in order to deal with the dead, dying, 
and downed trees on our national forests. How many high-priority acres 
does the Forest Service have nationwide that require treatment? How 
much progress has the agency made toward treating these priority acres?
    Answer. The LANDFIRE project will provide a national appraisal of 
vegetative conditions and provide information which will allow the 
agency to make an informed assessment of the number of high-priority 
acres that need to be treated to mitigate the wildfire situation. 
Between fiscal years 2000 and 2008, the Forest Service treated more 
than 17.6 million acres of hazardous fuels nationwide across National 
Forest System lands. Treatments were conducted in high- priority areas 
to create or maintain conditions that are at a reduced risk of 
catastrophic fire. Additional funding has been provided to the States 
to reduce fire hazard on State and private lands.
                         firefighter retention
    Question. As you know, the subcommittee provided $28 million this 
fiscal year to fund recruitment and retention initiatives for areas 
like California that face staffing shortages. I have not yet received 
the final spending plan for these funds required by the 2009 Interior 
bill. What are the details of how the money will be used? How are you 
using these funds to ensure your firefighting corps is fully staffed, 
and why did you select the initiatives you chose? What evidence do you 
have that these initiatives are working?
    Answer. The Forest Service appreciates the patience of the 
Appropriations Committee in allowing the agency to develop a 
comprehensive recruitment and retention plan. The regional forester 
implemented a process across the State with line officers and employees 
to identify integrated elements for retention within his authority in 
four areas: mission related to fire suppression, workplace improvement, 
fire facilities, and pay. The approaches taken are expected to improve 
firefighter retention within the region and will be monitored to ensure 
their effectiveness. The region's efforts include:
  --Fire Suppression Mission.--The regional forester has reiterated the 
        Agency's fire suppression focus for National Forest System 
        lands and his commitment to agency policy, and the 2008 
        Wildland Urban Interface Operating Principles. Additionally, 
        the Regional Forester has reiterated the Agency's role in ``all 
        risk'' missions based on Homeland Security Presidential 
        Directive 5, including the expectation that Agency 
        participation in medical response should be by exception, and 
        not the rule.
  --Workplace Improvement.--The regional forester will implement a wide 
        range of actions including increased opportunities for 
        leadership training at all levels, authorizing additional 
        administrative and technical support personnel at local units, 
        authorizing the promotion of apprentice employees to GS-5 
        within the program, and authorizing permanent, seasonal tours 
        for firefighters outside of the Apprentice program to be 
        adjusted to permanent full-time tours (for those employees 
        wishing to do so).
  --Fire Facilities.--A list of projects that would have an impact 
        toward improving health, safety, and mission capacity has been 
        developed. Once funding is available, the regional forester 
        will provide direction to implement these projects. In the long 
        term, the regional forester will direct the region to complete 
        the strategic facility master plan, which will allow fire 
        facility needs to be analyzed on a regional scale instead of 
        the forest-by-forest process currently in place.
  --Pay.--The regional forester has taken actions within his authority:
    --Firefighter Seasonal to Permanent Full-time Tour Conversion.--On 
            March 4, 2009, the regional forester authorized forest 
            supervisors to convert permanent seasonal firefighter 
            positions to permanent full-time. Permanent seasonal 
            firefighters are those employees who normally work 6-9 
            months per year and are in a nonpay status for the balance 
            of the year. Approximately 1,555 positions are eligible for 
            the conversion, but more than 700 of those positions are 
            currently vacant and reserved for apprentice firefighters 
            who are ineligible for conversion. Apprentices will be 
            placed into those vacancies as permanent full-time 
            firefighters upon completion of their training. In fiscal 
            year 2010, the region estimates that approximately 780 
            formerly seasonal positions will have been converted to 
            full time resulting in an increased cost to the region of 
            about $9.5 million. In future years, as employee retention 
            levels increase and apprentices graduate into current 
            vacancies, the number of formerly seasonal positions that 
            have been converted to full time will increase annual costs 
            to the region. The potential increased costs to the region 
            could rise as high as $21.5 million a year if all 1,555 
            positions are eventually converted. However, these 
            employees will be available to perform project work in 
            ecosystem restoration, hazardous fuels reduction, biomass-
            to-energy, and other important agency priorities.
    --Firefighter 10 Percent Retention Incentive.--On March 1, 2009, a 
            10 percent retention incentive for GS-5 through GS-8 
            firefighters was authorized. Thirteen hundred (1,300) 
            firefighters received the benefit, which will continue to 
            be reflected in employees' paychecks. The current 
            authorization is for 1 year (26 pay periods). The retention 
            incentive will be reviewed prior to expiration in 2010 to 
            determine if it is having an effect on attrition patterns. 
            The additional cost for the 10 percent retention incentive 
            for 1 year is approximately $7 million.
    In addition, the agency is assessing the options of a new wildland 
firefighter series and a special salary rate for California. Both of 
these options will require Office of Personnel Management approval. The 
agency will evaluate the effectiveness of the recruitment and retention 
plan actions with two metrics. First, the region will assess vacancy 
rate trends in GS-6 through GS-8 positions. Second, agency will monitor 
the resignation trends of firefighters.
    Question. Does the Forest Service plan to renew retention efforts 
in California for the coming fiscal year, fiscal year 2010? Your budget 
request didn't include funds to continue retention initiatives and, in 
fact, flat-lined the fire preparedness budget at $675 million. If the 
Forest Service plans to continue these efforts, how do you propose to 
pay for them?
    Answer. The agency will assess the effectiveness of the regional 
recruitment and retention actions at the end of the fiscal year. The 
actions taken this year will increase annual baseline costs. We expect 
that any actions will be funded through regional program funding 
allocations along with carryover from the original earmark of $25 
million to cover the costs of renewing the 10 percent retention 
incentive and the projected promotion of permanent seasonal employees 
to permanent full-time status.
    Question. It is my understanding that the Forest Service is also 
continuing to look at other potential, long-term retention strategies, 
which include a special pay rate, a firefighter GS series, and a 
portal-to-portal pay system. Please provide me with specific updates on 
what steps you are taking to consider each of these strategies, 
including a timeline for review and decisionmaking for each. Please 
include any information that is available on current cost projections 
for implementing each of these strategies.
    Answer. The agency is looking at several long-term strategies.
  --Firefighter Series.--The agency is nearly finished assessing 
        options and estimating the workload necessary to develop a 
        proposal for a new wildland firefighter job series. The 
        assessment requires an extensive job analysis to determine job 
        requirements and is a Service-wide effort being coordinated 
        with other wildland fire agencies in the Department of the 
        Interior. Once the job analysis and proposal is completed, 
        Office of Personnel Management (OPM) will make the final 
        determination. Completing the analysis and gaining approval 
        from the OPM will take time.
  --Special Salary Rate.--The Forest Service currently has a special 
        salary rate for wildland firefighters in certain southern 
        California counties. For most GS grades (GS-3 through GS-9), 
        the special salary rate is slightly above the locality pay for 
        these areas. For GS grades starting at the GS-10, the locality 
        pay is actually higher than the special rate in both the Los 
        Angeles and San Diego area. The agency is currently analyzing 
        the effect of the current special salary rate and whether a 
        special salary rate for the rest of California would affect 
        recruiting and retaining firefighters. The analysis will 
        consider effects from the 10 percent retention incentive. 
        Similar to requirements for a new firefighter series, the OPM 
        requires a rigorous analysis and justification for any new 
        special salary rate. The analysis will take time for the agency 
        to prepare and work with the OPM.
  --Portal-to-Portal Pay.--This option is not being considered by the 
        agency at this time.
    The cost for each of these is not known.
             marijuana enforcement on national forest lands
    Question. Over the past 3 years, I've worked to increase the Forest 
Service's law enforcement budget by $25 million to fight marijuana 
cultivation on national forests. I'm extremely concerned that 
cultivation sites continue to be a danger to public safety, as these 
gardens are often guarded by armed drug traffickers. What progress have 
you made in eradicating these marijuana gardens? Please provide 
relevant statistics, both nationally and for California only, to 
support your response (i.e., number of plants eradicated, number of 
arrests made, number of prosecutions, etc.).
    Answer. The Forest Service has made the following progress in 
eradicating the marijuana gardens both nationally and for California as 
follows:

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                           Nationally                                  2006            2007            2008
----------------------------------------------------------------------------------------------------------------
Marijuana plants eradicated.....................................       1,221,989       2,050,368       3,295,870
Sites eradicated................................................             497             462             714
Sites tended by foreign nationals...............................             216             256             245
Felony drug arrests.............................................             327             319             424
Firearms seized.................................................             249             274             330
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                      Region 5 (California)                            2006            2007            2008
----------------------------------------------------------------------------------------------------------------
Marijuana plants eradicated.....................................       1,060,114       1,878,589       2,655,916
Sites eradicated................................................             250             328             437
Sites tended by foreign nationals...............................             197             241             208
Felony drug arrests.............................................              78              78             198
Firearms seized.................................................              37              71             154
----------------------------------------------------------------------------------------------------------------

    Question. I am very concerned about natural resource damage caused 
by marijuana gardens. I believe that efforts to clean up these sites 
will require dedicated funding. In fiscal year 2009, I provided a 
$500,000 increase to your budget specifically to clean up national 
forest lands after drug eradication operations. How will the funds be 
used? Did you continue these funds in your budget request?
    Answer. The fiscal year 2009 Omnibus Appropriation Act earmarked 
$500,000 for rehabilitation of drug cultivation sites. This earmark was 
distributed in the final allocation based on each region's percent of 
cultivation sites identified in the LEIMARS database. The following 
regions received additional funding for restoration of drug cultivation 
sites: region 3--$10,000; region 4--$15,000; region 5--$310,000; region 
8--$140,000; and region 9--$25,000. Regions were also provided 
direction that additional vegetation and watershed management program 
funds may be utilized for rehabilitation of drug cultivation sites, 
based on regional watershed restoration objectives and priorities. In 
addition to these funds, regions should utilize minerals and geology 
management program funds for the clean-up of sites contaminated with 
hazardous materials.
    The fiscal year 2010 President's budget request increased funding 
for watershed restoration activities from $57.1 million in fiscal year 
2009 to $60.2 million in fiscal year 2010. Accomplishment of drug site 
restoration would be prioritized along with other watershed restoration 
needs, including those generated by wildfire and other natural events. 
Watershed restoration needs in high- priority watersheds, such as 
municipal watersheds will receive priority for available restoration 
dollars; and this will include treatment of drug cultivation sites with 
the potential to impact water quality in these watersheds.
    Question. How much additional funding is needed to clean up 
remaining cultivation sites, both nationally and in California?
    Answer. The agency will address reclamation and restoration with 
available funding on a priority basis. Cost for individual site 
reclamation will vary greatly, and a comprehensive assessment of these 
costs has not been completed. These sites create extensive resource 
damage, such as terraced soils, access trails; stream diversions; 
vegetation and timber removed, hazardous chemicals and buried 
irrigation systems.
                      firefighting aviation needs
    Question. The Forest Service primarily depends on an aging fleet of 
old military P2-V and P-3 aircraft to serve as air tankers for initial 
attack on wildfires. The Forest Service is currently contracting 18 air 
tankers to fight fires--that's down from a peak of 44 aircraft in 
2002--and I am very concerned that you continue to lose more aircraft 
each year to accidents and airworthiness concerns. How long will the 
rest of your air tanker fleet be able to fly safely? Please provide 
specific data for both types of aircraft.
    Answer. The P-3 is currently supported by the manufacturer, 
Lockheed Martin, which provides service life extension programs for 
these aircraft as they approach retirement. The P2-V, however, is not 
supported by a manufacturer. We anticipate that P2-V fleet could be 
expended as early as 2022. Aircraft accidents continue to reduce 
airtanker numbers by approximately .5 aircraft per year.
    Question. What role will the Modular Airborne FireFighting System 
(MAFFS) II units need to play as the Forest Service's air tanker fleet 
ages?
    Answer. The MAFFS program has traditionally provided additional 
capacity for the Forest Service and our interagency partners. The MAFFS 
II is a significant improvement in design and operational 
effectiveness. We are looking forward to continued partnership with the 
military and the MAFFS II tanks. At this time we do not anticipate 
needing additional MAFFS units to support the wildland fire program.
    Question. In 2005, the subcommittee directed the Forest Service to 
review its fleet and analyze future firefighting aviation needs. I 
understand that effort led to the development of a new firefighting 
aviation strategy, including recommendations that pertain to the future 
of the Forest Service's air tanker fleet. You have not yet made this 
strategy public. What is the administration's timeline for the release 
of this strategy? When will you make a copy of this strategy available 
to the subcommittee and to the public?
    Answer. The Forest Service, in cooperation with our interagency 
partners, has completed an extensive Interagency Aviation Strategy 
calling for replacement of critical firefighting assets. This document 
has been forwarded to the Acting Deputy Undersecretary for Natural 
Resources and Environment, USDA for discussion. Once discussion and 
review is complete we anticipate a decision.
                            cabin user fees
    Question. What is the total annual cost to the Forest Service for 
administering the recreation residence program for each of the past 5 
fiscal years, including projected costs for fiscal year 2009? How many 
full-time employees (FTE) does the program require? Please provide the 
basis for how the costs were calculated, and separate out direct and 
indirect costs.
    Answer. The Forest Service accounting system does not distinguish 
the cost of performing recreation residence permit administration from 
the cost of processing and administering recreational permits overall. 
In fiscal year 2009, the total for the administration of recreation 
special use authorizations is estimated at $43.1 million and 338 FTEs. 
Of that planned amount, approximately $6.7 million are indirect costs 
or about 15.5 percent. The fiscal year 2009 estimate for administering 
recreation special uses overall is based on regions' capability data. 
The indirect cost estimate is based on fiscal year 2008 actual 
expenditures and that same indirect cost percentage is applied to 
fiscal year 2009 planned levels.
    Question. What are the real and projected costs to the Forest 
Service for implementing the Cabin User Fee Fairness Act of 2000 
(CUFFA) for the past 5 fiscal years, including fiscal year 2009? How 
much is budgeted for fiscal year 2010? Please separate direct and 
indirect costs.
    Answer. The cost of implementing the CUFFA is reflected in the 
direct appraisal costs estimated at $7 million from fiscal year 2007 
through fiscal year 2012 and an additional $1.3 million in indirect 
costs. CUFFA did not result in a significant increase in direct 
appraisal costs per appraisal cycle, but by requiring appraisals every 
10 years as opposed to the previous policy of every 20 years, CUFFA 
effectively doubled these costs. Indirectly, CUFFA resulted in a 
significant amount of time and money devoted to the writing of 
regulations, meeting with interested parties, and responding to the 
controversy generated by its implementation. The agency does not 
separately track these costs, as it is part of overall recreation 
permit program costs.
    Question. Specifically, what are the costs of new appraisals to 
implement CUFFA in fiscal years 2007, 2008, and 2009? What appraisal 
costs are budgeted for fiscal year 2010? What is the expected total 
cost of an entire appraisal cycle for all forests? Please explain how 
the overall CUFFA implementation costs and the appraisal costs were 
determined.
    Answer. Costs of new appraisal are spread out from fiscal year 2007 
through fiscal year 2012. Our accounting system does not split out 
these specific costs, but the agency has developed the following 
estimates based on known direct contract costs and review appraiser 
costs, and then projecting forward. An estimated additional $1.3 
million over fiscal year 2007-fiscal year 2012 is estimated for 
indirect costs.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                      Direct         Indirect
                           Fiscal year                               estimate        estimate     Total estimate
----------------------------------------------------------------------------------------------------------------
2007............................................................           1,600             300           1,900
2008............................................................           1,800             300           2,100
2009............................................................           1,600             300           1,900
2010............................................................           1,000             200           1,200
2011............................................................             600             100             700
2012............................................................             400             100             500
                                                                 -----------------------------------------------
      Total.....................................................           7,000           1,300           8,300
----------------------------------------------------------------------------------------------------------------

    Question. How much revenue did the Federal Government receive from 
the fees paid for recreation residence permits in fiscal year 2008? 
Under current law and policies, how much revenue is the Federal 
Government projected to receive from fees paid for recreation residence 
permits in each fiscal years from fiscal year 2009 to fiscal year 2014?
    Answer. In fiscal year 2008, revenue received was $14.6 million. 
Assuming there is little change in fees from second appraisals and 
assuming the increase indicated from the completed appraisals is 
representative for the whole, the agency projects $40 million in annual 
fees upon full implementation. The last appraisals will be reviewed in 
fiscal year 2012 and will begin a 3-year phase-in in fiscal year 2014. 
Breaking out the increase over the intervening years would indicate the 
following estimates.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2009........................................              20
Fiscal year 2010........................................              22
Fiscal year 2011........................................              24
Fiscal year 2012........................................              26
Fiscal year 2013........................................              32
Fiscal year 2014........................................              35
------------------------------------------------------------------------

                                 ______
                                 
                Question Submitted by Senator Judd Gregg
                         forest legacy program
    Question. As you know, in the East, we feel very strongly about the 
need for funds to help us leverage purchases to protect land, and the 
Forest Legacy program is a vital part of that. The administration's 
fiscal year 2010 budget includes $1 million for a new, Community 
Forests Program within Forest Legacy. Is the Forest Service committed 
to ensuring robust funding for the Forest Legacy program and also 
ensuring that funding levels for successful existing programs, such as 
Forest Legacy, will not be adversely impacted as a result of funding 
for new programs?
    Answer. Both the Forest Legacy and Community Forests programs are 
important conservation tools that the Forest Service uses to conserve 
important open space and forest resources. In addition to the $1 
million for a new Community Forests program within the Forest Legacy 
program, the President's budget also included $34 million for the 
President's ``Conserve New Lands'' initiative. This new initiative 
reflects the administration's priorities in land conservation. The 
commitment to the program is also reinforced through the participation 
from States; in fiscal year 2010, 44 States submitted 87 projects with 
a value of $194 million. While the Forest Service is dedicated to all 
of its programs, it is explicitly committed to fulfilling the 
President's goals with respect to this new effort.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The hearing is recessed.
    Ms. Kimbell. Thank you.
    [Whereupon, at 10:48 a.m., Wednesday, May 20, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
